                                                 NATIONAL SCIENCE FOUNDATION                                11
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: I05080032                                                                    Page 1 of 1


                                                                                                           I1
         OIG opened this investigation based on results from a proactive review of foreign travel and
         participant support costs. The grantee1was selected and asked to provide financial information
         and supporting documentation related to an NSF award.2 The grantee submitted records dnd
         documentation as requested and a review noted various expenses charged to the grant fund for
         which no receipts were provided. These expenses totaled $3,353.68. A letter was sent to the
         grantee requesting additional documentation or clarification regarding the claimed costs. The
         grantee responded to the request and submitted receipts for all the questioned costs. Since the
         grantee properly accounted for all grant expenditures, all issues have been resolved.      11

          Accordingly, I recommend this case be closed.                                                1


                                                                                                      I1




                                                                                                      I1



                                                                                                      I



                                                                                                      Il



                                                                                                      /I




                                                                                                  I/




1
I                                                                                                11
NSF OIG Form 2 (1 1/02)
